HHS/OIG-Audit--"Follow-up Review of the Health Care Financing Administration's Efforts to Assure Employer Group Health Plan Compliance with Medicare Secondary Payer Data Match Requirements, (A-02-98-01036)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-up Review of the Health Care Financing Administration's Efforts to Assure Employer Group Health Plan Compliance
with Medicare Secondary Payer Data Match Requirements," (A-02-98-01036)
July 18, 2000
Complete
Text of Report is available in PDF format (1.82 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Health Care Financing Administration (HCFA) contacts employers for group health plan information on employees covered
by Medicare. The HCFA has obtained group health plan information from approximately 1.7 million employers, which represent
about 87 percent of the employers contacted from 1991 through 1997. The use of this employer provided group health plan
information has resulted in approximately $2.5 billion in Medicare secondary payer (MSP) savings. However, the HCFA has
not used all available remedies to obtain this information from the remaining 13 percent of employers who have chosen not
to respond to the legislatively mandated request for information. As a result of not having this data, we estimate that
HCFA has paid out as much as $282 million in Medicare funds for which group health insurance plans were liable. In this
final report to HCFA we recommended, among other things, that HCFA assess civil monetary penalties against employers who
refuse to respond to the requests for group health plan information on Medicare beneficiaries. The HCFA concurred with
our recommendations and has agreed to take corrective action.